Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




  MEDICARE ENROLLMENT OF HOME
        HEALTH PROVIDERS




                   JANET REHNQUIST
                  Inspector General

                     JANUARY 2002
                    OEI-04-00-00550
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General. Principal OEI staff included:

       Peggy Daniel, Lead Analyst

       Tricia Davis, Program Specialist

       Allison Grablowsky, Program Analyst

       Gerius Patterson, Program Analyst

       Joe Townsel, Team Leader



To obtain copies of this report, please call the Atlanta Regional Office at (404) 562-7723.
Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei/
                                  EXECUTIVE SUMMARY

PURPOSE

         To determine if the Centers for Medicare & Medicaid Services enrolled home health
         providers who were ineligible for participation in Medicare.

BACKGROUND

         Medicare beneficiaries who are homebound and in need of qualifying skilled services on a
         part-time or intermittent basis are eligible for home health care. Such beneficiaries must
         be under the care of a physician who has established a plan of care. The beneficiaries may
         receive skilled nursing and home health aide services, as well as physical, speech, and
         occupational therapy. The home health benefit is unlimited as long as the services are
         considered medically necessary.

         Prior reports by the Office of Inspector General and others, have shown that while most
         home health care providers are honest, some providers improperly billed Medicare for
         unqualified services and services not provided.

         The Balanced Budget Act of 1997 required the Centers for Medicare & Medicaid Services
         (CMS) to deny Medicare enrollment to entities and individuals who had been excluded
         from Medicare by the Office of Inspector General or debarred from government program
         participation by the General Services Administration. The BBA also authorized CMS to
         deny enrollment to parties convicted of non-healthcare related felonies if the offense is
         determined to be inconsistent with the best interest of the Medicare program and its
         beneficiaries. Additionally, CMS regulations require denial of Medicare participation to
         providers who are undercapitalized.

         This OIG report focuses on the effectiveness of CMS enrollment practices to keep
         ineligible home health care providers out of Medicare. We examined a sample of
         providers enrolled between October 1, 1997 and September 30, 2000.

FINDING

CMS Processes Seem to Have Effectively Prevented Enrollment of Ineligible Persons and
Entities for Providing Home Health Care to Medicare Beneficiaries

         Excluded or debarred persons or entities

         During the period of our inspection, CMS enrolled 880 home health agencies with an
         estimated 4,273 owners and managers. We independently reviewed provider enrollment


                                                  1
Home Health Provider Enrollment                                                        OEI-04-00-00550
         for a sample of 272 of the 880 home health agencies. We also reviewed 1,190 owners or
         managers associated with those agencies. None of the agencies, owners, or managers we
         reviewed had been excluded from Medicare participation before they were enrolled to
         provide home health care.

         Felons

         We reviewed a sample of 492 of the estimated 4,273 home health agency owners or
         managers who were approved for Medicare participation during the period of our
         inspection. We found none who had a felony record when they were approved by CMS.
         Based on residential addresses, we searched criminal records in Federal and applicable
         State or local court jurisdictions.

         Undercapitalized Agencies

         For 95 of our sampled 272 agencies, we verified that Medicare contractors had
         determined they met minimum capitalization requirements before approval. The remaining
         177 had enrolled in a prior period. Thus, a determination of capitalization levels was not
         applicable.




                                                 2

Home Health Provider Enrollment                                                       OEI-04-00-00550
                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDING


         Enrollment process seemed effective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10





                                                             3

Home Health Provider Enrollment                                                                              OEI-04-00-00550
                                  INTRODUCTION

PURPOSE

         To determine if the Centers for Medicare & Medicaid Services enrolled home health
         providers who were ineligible for participation in Medicare.

BACKGROUND

Providing Home Health Care to Medicare Beneficiaries

         Home health services are provided to Medicare beneficiaries who are homebound and in
         need of qualifying skilled services on a part-time or intermittent basis. Such beneficiaries
         must be under the care of a physician who has established a plan of care.

         Medicare beneficiaries may receive skilled nursing, home health aide services, and
         physical, speech, and occupational therapy. The home health benefit is unlimited as long
         as the services are considered medically necessary.

         Medicare home health expenditures rose from $3.7 billion in 1990 to $17.8 billion in 1997.
         However, since 1997, both the costs and the number of home health agencies (HHAs)
         have continuously declined. To illustrate, by the end of Fiscal Year 2000, the cost of
         home health care had declined to $9.2 billion. Likewise, 10,807 HHAs were participating
         in the Medicare program in 1997. That number had declined to 7,099 at the end of
         Calendar Year 2000.

         The Centers for Medicare & Medicaid Services (CMS) attributed the decreases partly to
         the Balanced Budget Act of 1997. Among other things, the Act authorized more stringent
         HHA enrollment practices.

Prior Reviews Show Improper Activities by Many Home Health Care Providers

         Prior Office of Inspector General (OIG) audits and investigations have routinely
         documented that, while most health care providers are honest, improper billing and
         payments continue to exist. For example, OIG audit reports in 1997 and 1999 showed
         improper payments for home health services at 40 percent and 19 percent, respectively, in
         four large States.

         Likewise, since 1997, OIG investigations have led to numerous prosecutions of, or
         settlements with, HHA owners for fraudulent Medicare claims. For example, such claims
         included salaries, travel, and legal expenses that were not related to care of Medicare
         beneficiaries, and therefore unallowable. They also included services to


                                                   4
Home Health Provider Enrollment                                                           OEI-04-00-00550
         ineligible beneficiaries, particularly those not homebound. The resulting fines and
         settlements were often significant, including $10 million at one firm.

CMS Can Deny Participation by Unscrupulous and Undercapitalized Home Health Care
Providers

         CMS can deny Medicare participation to unscrupulous home health providers and to those
         for whom successful performance is doubtful due to limited financial resources.

         CMS must deny enrollment to HHAs if they, their owners or managers have been
         excluded from Medicare participation by the OIG or GSA. Also, family or household
         members of such a person must be denied participation.

         The Balanced Budget Act of 1997 (BBA) authorized CMS to deny enrollment for
         Medicare participation to individuals and entities who have been convicted of a felony
         under Federal or State law for an offense which is inconsistent with the best interests of
         the Medicare program and its beneficiaries.

         By regulation, CMS requires that a new HHA have enough funds on hand to operate for
         the first 3 months without reimbursement. The objective is to ensure financial stability of
         home health providers.

         CMS regional offices have responsibility for final approval or denial determinations. The
         decision, however, should be based on findings and recommendations by Medicare
         contractors called Regional Home Health Intermediaries (RHHIs), and State licensing and
         certification agencies.

         To obtain approval as a Medicare provider, a home health applicant must submit an
         application via a CMS 855 form. CMS provides guidance for provider enrollment in
         Section 3040 of the Medicare Intermediary Manual. Generally, applicants apply to State
         licensing and certification agencies. Those agencies forward applications to the
         appropriate RHHI for review.

         When an RHHI recommends approval, the State licensing and certification agency verifies
         that HHA applicants meet the requirements aimed at protecting the health and safety of
         beneficiaries. An HHA must be licensed by a State before it can receive approval for
         Medicare participation.




                                                   5

Home Health Provider Enrollment                                                          OEI-04-00-00550
METHODOLOGY

         To determine whether or not CMS enrolled ineligible HHAs to provide services under
         Medicare, we reviewed CMS’ enrollment process and results for a sample of 272 enrolled
         HHAs. Between October 1, 1997 and September 30, 2000 CMS enrolled 880 HHAs and
         an estimated 4,273 owners and managers associated with them.

         We initially selected a random proportional stratified-cluster sample of 277. We reduced
         the sample size to 272 HHAs. This resulted in a sample of 1,190 HHA owners and
         managers. We dropped five HHAs from our sample because RHHIs could not locate files
         or RHHI logs contained incorrect enrollment data.

         For each of the 272 HHAs and 1,190 owners or managers, we independently verified that
         none had been excluded from Medicare prior to CMS approving them for home health
         care to Medicare beneficiaries.

         From our sample of owners and managers, we used a random sub-sample of 492 to
         determine whether CMS had approved any who had a prior felony record.

         Finally, we verified that RHHIs had determined, where applicable, that home health
         applicants met minium capitalization requirements before CMS approved them to provide
         home health care.

         The appendix to this report describes our methodology in further detail.

                                       --------------------------

         We performed this inspection between December 2000 and October 2001. We conducted
         this inspection in accordance with the Quality Standards for Inspections issued by the
         President’s Council on Integrity and Efficiency.




                                                   6

Home Health Provider Enrollment                                                      OEI-04-00-00550
                                                     FINDING

CMS Processes Seemed to Effectively Prevent Enrollment of
Ineligible Persons and Entities for Providing Home Health
Care to Medicare Beneficiaries
         Preventing enrollment of excluded or debarred persons or entities

         To assure that no excluded individuals and entities are approved to provide home health
         care, RHHIs search two data sources. As required, RHHIs compare home health care
         applicants to both the OIG exclusion list and the GSA debarment list. CMS must deny
         Medicare participation to any HHA applicant appearing on either list.

         From the universe of 880 HHAs, we independently reviewed provider enrollment
         information on 272, as well as 1,190 HHA owners and managers. We found none that
         had been previously excluded from Medicare participation.

         We used three major automated data sources to identify excluded parties. First, we tested
         272 HHAs and 1,190 HHA owners and managers against the OIG List of Excluded
         Individuals/Entities. The OIG exclusion list identifies individuals and entities that are
         excluded from participation in Medicare, Medicaid, and other Federal health programs.
         The list currently includes over 15,000 individuals and entities.

         Second, we tested the same 272 HHAs and 1,190 HHA owners and managers by using the
         GSA List of Parties Excluded from Federal Procurement and Nonprocurement programs.
         The GSA debarment list identifies individuals and entities that are excluded from
         participation in Federal programs governmentwide. The basis for such actions can include
         criminal convictions or a civil judgement for fraud, false claims, or other offenses
         indicating a lack of business integrity.

         Finally, we tested 1,181 HHA owners and managers1 by using the Healthcare Integrity and
         Protection Databank (HIPDB). The Databank is a national database managed by the
         Health Resources and Services Administration, within the U.S. Department of Health and
         Human Services. It identifies prior actions that would be considered adverse to the
         provision of health care, including licensing and certification decisions, which may have
         resulted from criminal convictions, civil judgements, or similar events.




         1
          We were unable to obtain results for 9 of the 1,190 owners due to missing dates of birth.
                                                              7
Home Health Provider Enrollment                                                                       OEI-04-00-00550
         Preventing enrollment of felons

         CMS has the authority to deny Medicare participation for individuals and entities that had
         a felony conviction under Federal or State law for an offense which is inconsistent with the
         best interests of the Medicare program and its beneficiaries. Between October 1, 1997
         and September 30, 2000, CMS enrolled 880 HHAs and an estimated 4,273 associated
         owners and managers.

         The system used by CMS and its RHHIs seems to be effectively keeping felons from
         receiving approval to participate in Medicare. We searched for criminal records for a sub-
         sample of 492 HHA owners and managers connected with 115 HHAs. We found none
         who had a felony record over a 7-year period beginning in August 1994 and ending in July
         2001. This period encompassed the date that CMS approved each of the selected home
         health agencies to provide care to Medicare beneficiaries.

         Our sample of 272 HHAs had 1,190 owners and managers. From those owners and
         managers, we selected a sub-set of 492 owners and managers. We searched in Federal
         jurisdictions where each of the 492 members of our sample resided. Likewise, we
         searched applicable State or local court jurisdictions. Our search of criminal records
         covered both health care and non-health care crimes. Health care related felons might
         have been identified during our searches of OIG, GSA, and HIPDB electronic files,
         however, some non-health care crimes would not be identified from those files alone.

         RHHIs do not systematically and routinely search criminal history records to deny
         Medicare participation for felons. Instead, they rely on their search for parties that have
         been excluded from Medicare participation. They search the DHHS Office of Inspector
         General’s exclusion list, and the GSA debarred list. Some individuals that appear on these
         lists are there because of a felony act, particularly one which is health care related.

         CMS allows RHHIs to specifically search criminal history data files when they have reason
         to suspect that an HHA applicant is a felon. However, each of the five RHHIs advised us
         that no such searches were done during the period of our inspection -- October 1, 1997
         through September 30, 2000.

         Preventing enrollment of undercapitalized agencies

         For 95 of the 272 HHAs appearing in our sample, we verified that RHHIs did determine
         that they met minimum capitalization requirements before CMS enrolled them to provide
         home health care. The remaining 177 HHAs had already enrolled during a prior period.
         Therefore, an RHHI determination of minimum capitalization requirements did not apply.
         Typically, the 177 HHAs appeared in our sample because they had applied for approval
         for management, ownership, or other operational changes.




                                                  8

Home Health Provider Enrollment                                                         OEI-04-00-00550
         To prevent undercapitalized providers from enrolling in Medicare, RHHIs obtain the
         following documentation for each applicant.

         C	       Applicants must submit a projection of home health visits during the first 3 months
                  and the first year of operation.

         C	       Applicants must submit a copy of bank statements and other evidence showing
                  sufficient funding to meet minimum needs for the first 3 months of operation. At
                  least 50 percent of that amount must be unencumbered, non-borrowed funds.

         C	       A bank officer must provide an attestation showing that funds are in the accounts
                  specified by applicants, and that the funds are immediately available. The
                  attestation must accompany an applicant’s bank statements.

         We did not independently gather financial data on each application and determine that they
         met minimal capital requirements. Instead, we reviewed RHHI records for applicable
         HHAs and verified that the RHHI had collected the financial data and performed needed
         calculations to determine that the HHA applicants met minimal requirements.




                                                   9

Home Health Provider Enrollment                                                          OEI-04-00-00550
                                                                                  APPENDIX


                                                METHODOLOGY



Scope

         Our study focused on determining whether or not CMS enrolled ineligible HHAs for
         Medicare participation2 between October 1, 1997 and September 30, 2000. For our
         review, we sampled 272 applicant HHAs, and 1,190 owners and managers which were
         associated with them. We used SAS to select HHA applicants proportionately stratified
         by each RHHI jurisdiction. Table 1 shows our sample selections.

                                                         Table 1

                                                      Sample Selection

           RHHI            Universe       Proportional        Adjustments          Adjusted          # of Owners
           Locations         of            Sample of                                Sample                and
                            HHAs            RHHIs                                                     Managers
                                                                                                      Associated
                                                                                                     with HHA
           Iowa               443               138                  --                138                575
           Wisconsin          148               47                   -1                46                 117
           South              125               39                   -4                35                 163
           Carolina

           California         113               36                   --                36                 267
           Maine               51               17                   --                17                  68

           TOTALS             880              277                  -5*               272              1,190**
         *We eliminated five HHAs because RHHIs could not locate files for four, and their enrollment logs

         contained incorrect information for one.

         **This number is based on a non-distinct count of owners and managers for sampled HHAs. It represents

         each time an owner or manager appeared on an HHA application, and some were associated with more

         than one HHA.





          2
           We used the term ineligible to refer to entities and individuals who were (1) excluded from Medicare by the OIG or
debarred from government participation by the General Services Administration, (2) felons, and (3) undercapitalized parties.
We recognize that providers may be ineligible for reasons other than the three addressed in this report.


                                                             10
Home Health Provider Enrollment                                                                                 OEI-04-00-00550
Data Collection

         Selecting HHAs For Our Inspection: To identify HHA applicants that CMS approved
         for Medicare participation between October 1, 1997 and September 30, 2000, we used
         tracking logs maintained by each RHHI. The logs contained names of applicant home
         health agencies, and dates applications were received, approved, returned, or denied. The
         logs showed that CMS approved 880 home health agencies. Table 2 below shows our
         estimated total number of owners and managers associated with the 880 HHAs in our
         universe. Our estimate is calculated based on the number of distinct HHA owners and
         managers, 1,070. Our analysis revealed that several HHA owners and managers appeared
         on multiple HHA enrollment applications. For example, one owner was the sole
         proprietor of five HHAs seeking enrollment. For our estimate of total owners and
         managers for the 880 approved HHAs, we counted duplicate owners and managers only
         once.

                                                  Table 2

                         Point Estimate of Approved Distinct Owners and Managers

                             Between October 1, 1997 and September 30, 2000

                                      Point          Lower 95%             Upper 95%
                                     Estimate     Confidence Interval   Confidence Interval
                    Total Owners      4,273             3,594                 4,952
                    & Managers



         Some RHHI staff furnished testimonial and anecdotal information suggesting that more
         HHAs had been approved than those shown on the tracking logs. Therefore, the logs may
         not be totally correct. While we recognize that the logs could be incomplete, we relied on
         them for our sample. We did so because they contained specific data on HHA
         applications and resulting CMS decisions that we needed for our inspection.

         Documenting CMS Decisions For Sampled HHAs: We obtained and reviewed key
         documentation from RHHIs leading to approval of the 272 HHA entities and the 1,190
         owners or managers. For example, we obtained and reviewed copies of

         --       HHA applications contained on CMS forms 855 and related documentation,

         --       calculations by RHHI staff to determine if HHA applicants met minimum
                  capitalization requirements,

         --       results of on-line screening by RHHIs to determine if HHA applicants had been
                  excluded from Medicare participation by OIG or debarred from government
                  program participation by GSA, and


                                                   11
Home Health Provider Enrollment                                                         OEI-04-00-00550
         --       RHHI recommendations to CMS regional offices for each HHA applicant.

         Understanding CMS Enrollment Process: We reviewed CMS policies and procedures,
         and RHHI procedures, for enrolling Medicare providers. We did on-site inspections and
         interviews at four of the five RHHIs. We also conducted on-site interviews with staff at
         CMS headquarters and one regional office. We surveyed staff at the remaining eight
         CMS regional offices and at the remaining RHHI by e-mail. One CMS regional office did
         not respond to our requests for information.

Data Analysis

         Identifying HHAs That Had Been Excluded From Medicare: CMS must deny
         enrollment to HHAs if they, their owners or managers have been excluded from Medicare
         participation by the OIG or GSA. Also, family or household members of such a person
         should be denied participation.

         For each of our sampled 272 HHAs and the 1,190 owners or managers, we independently
         reviewed two data bases to ascertain if any had been excluded from Medicare participation
         before CMS approved their application to provide home health care to Medicare
         beneficiaries. We searched the OIG exclusion list and the GSA debarred list to identify
         any prior Medicare exclusions for all 1,190 owners or managers.

         Also, for 1,181 of the 1,190 owners and managers, we searched the Healthcare Integrity
         and Protection Databank (HIPDB) to identify any who were, or should have been
         excluded because of improper acts. We were unable to complete this search for all 1,190
         owners and managers because the date of birth was missing for 9 of them. In the HIPDB,
         the date of birth is critical for positive identification.

         We verified all possible exclusions on the three data bases by cross referencing social
         security numbers for our sampled 1,190 owners and managers.

         Identifying HHA Owners or Managers That Had a Felony Record: CMS has the
         authority to deny Medicare participation for individuals and entities that had a felony
         conviction under Federal or State law for an offense which is inconsistent with the best
         interests of the Medicare program and its beneficiaries.

         We independently reviewed a sub-sample of 492 of the 1,190 owners and managers to
         identify any who had a felony record before CMS approved them to provide home health
         care to Medicare beneficiaries. We selected our sub-sample to provide proportionate
         representation of the five RHHIs.

         We initially selected 500 HHA owners or managers, but dropped 8 because their addresses
         could not be located. The sub-sample represented 115 of the 880 home health agencies
         CMS approved between October 1, 1997 and September 30, 2000. To identify felons, we

                                                  12
Home Health Provider Enrollment                                                          OEI-04-00-00550
         used a contract research organization to search criminal records, for a 7-year period, in
         Federal and State jurisdictions where the members of our sample resided.

         Documenting That RHHIs Determined Capitalization Levels For Approved HHAs:
         We independently analyzed case files for 95 of the 272 HHAs to determine if RHHIs had
         collected needed financial data and determined that the HHAs met required capitalization
         levels before granting approval to serve Medicare beneficiaries. This determination was
         not applicable to the remaining 177 HHAs because they were already enrolled, and their
         initial 3 months of operation had transpired previously. The 177 HHAs appeared in our
         sample of 272 because they had applied for clearance of an ownership, management, or
         other operational change.




                                                  13

Home Health Provider Enrollment                                                          OEI-04-00-00550
